      Department of Homeland Security





     FEMA Public Assistance Grant Funds Awarded to 

               Amador County, California 





DS-12-08                                       March 2012

                                                                               Office ojInspector General

                                                                               U.S. Department of Homeland Security
                                                                               Washington, DC 20528




                                                                                Homeland
                                                                                Security
                                              MAH 2 0 2012

MEMORANDUM FOR:



FROM:



SUBJECT:                             FEMA Public Assistance Grant Funds Awarded to
                                      Amador County, California
                                     FEMA Disaster Number 1628-DR-CA
                                     Audit Report Number DS-12-08


We audited public assistance (PA) grant funds awarded to Amador County, California (County),
Public Assistance Identification Number 005-99005-00. Our audit objective was to determine
whether the County accounted for and expended Federal Emergency Management Agency (FEMA)
grant funds according to federal regulations and FEMA guidelines.

The County received a PA award of $2.9 million from the California Emergency Management
Agency (Cal EMA), I a FEMA grantee, for emergency protective measures and permanent repairs to
facilities damaged as a result of severe storms, flooding, mudslides, and landslides from
December 17,2005, through January 3, 2006. The award provided 75% FEMA funding for 8 large
and 12 small projects. 2 The audit covered the period from December 17,2005, to November 3,
2009. 3 We audited project charges for five large projects and the Net Small Project Overrun,
totaling $2.1 million, or 72% of the total award.

We conducted this performance audit pursuant to the Inspector General Act of1978, as amended,
and according to generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based upon our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based upon our audit objective. We
conducted this audit applying the statutes, regulations, and FEMA policies and guidelines in effect at
the time of the disaster.




I At the time ofthe disaster, the grantee's name was the Governor's Office of Emergency Services, which became a part
of Cal EMA on January 1,2009.
2 Federal regulations in effect at the time of the disaster set the large project threshold at $57,500.
3 November 3,2009, is the date of Amador County's programmatic closure by FEMA.
We discussed issues related to this audit with FEMA, Cal EMA, and County officials; reviewed
judgmentally selected project costs (generally based on dollar value); and performed other
procedures considered necessary to accomplish our objective. We did not assess the adequacy of the
County’s internal controls applicable to grant activities because it was not necessary to accomplish
our audit objective. We did, however, gain an understanding of the County’s method of accounting
for disaster-related costs and its procurement policies and procedures.

                                      RESULTS OF AUDIT

Amador County accounted for and expended FEMA grant funds according to federal regulations and
FEMA guidelines for those projects we reviewed for FEMA Disaster Number 1628-DR-CA.

              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We informed FEMA, Cal EMA, and County officials of the audit results on February 28, 2012.
Because this audit did not identify issues requiring further action and did not contain any
recommendations, we consider this audit closed. Significant contributors to this report were
Humberto Melara, Devin Polster, and Jeff Flynn.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility over
the Department of Homeland Security. We will post the report on our website for public
dissemination.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Humberto Melara at (510) 637-1463.


cc:    	Administrator, FEMA
       Audit Liaison, FEMA Region IX
       Audit Liaison, FEMA (Job Code G-11-056)
       Audit Liaison, DHS




                                                 2

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
